Audit Report

Arkansas National Criminal History Improvement Program Cooperative Agreement Awarded to the Arkansas Crime Information Center

Audit Report GR-80-06-001


October 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, completed an audit of the Arkansas National Criminal History Improvement Program, Cooperative Agreement Number 2000-RH-CX-K005, awarded by the U.S. Department of Justice, Bureau of Justice Statistics, to the Arkansas Crime Information Center (ACIC) in Little Rock, Arkansas.  The purpose of this cooperative agreement was to provide funds to allow ACIC to enter dispositions into the states repository; transmit case dispositions from the courts database to the central repository; ensure that all the states criminal history records contain complete, timely, and accurate information; and to cover training costs associated with keeping employees abreast of new and changing regulations and legislation as they relate to criminal and sex offender records and information.  As of September 30, 2003, the ACIC was awarded a total of $2,499,290.  

The ACIC commingled expenditures for two grants during the period July 1, 2001, through March 31, 2002, and were unable to separate the individual costs.  We believe that $168,114 in expenditures from another Bureau of Justice Statistics grant was paid with funds from the current agreement.  In addition, we found $4,400 in unsupported grant expenditures.  

We reviewed ACICs compliance with essential cooperative agreement conditions and found weaknesses in five of the six areas tested  accounting records to account for funds awarded, reporting, drawdowns, budget management and control, and agreement expenditures.  Our report contains five recommendations that are discussed in detail in the Findings and Recommendations section.  Our audit objectives, scope, and methodology appear in Appendix I.  

As a result of the deficiencies found, we question a total of $172,514.1   We discussed the results of our audit with ACIC Officials and included their comments in the report, as applicable.    



Footnote

The Inspector General Act of 1978 contains our reporting requirements for questioned costs.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for the definition of questioned costs.